Report No. DODIG-2012-065                 March 15, 2012




      DoD Compliance With the Requirements of the
     Improper Payments Elimination and Recovery Act
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for Auditing by
phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
AFR                           Agency Financial Report
DFAS                          Defense Finance and Accounting Service
IPERA                         Improper Payments Elimination and Recovery Act of 2010
IPIA                          Improper Payments Information Act of 2002
OMB                           Office of Management and Budget
SBR                           Statement of Budgetary Resources
USACE                         U.S. Army Corps of Engineers
USD(C)/CFO                    Under Secretary of Defense (Comptroller)/Chief Financial Officer,
                                 DoD
                                    INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE
                                     4800 MARK CENTER DRIVE
                                  ALEXANDRIA, VIRGINIA 22350-1500




                                                                                   March 15, 2012

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF
                 FINANCIAL OFFICER, DOD
               COMMANDING GENERAL AND CHIEF OF ENGINEERS,
                 U.S. ARMY CORPS OF ENGINEERS
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
               DIRECTOR, TRICARE MANAGEMENT ACTIVITY

SUBJECT: 	DoD Compliance With the Requirements of the Improper Payments Elimination
          and Recovery Act (Report No. DODIG-2012-065)

We are providing this report for your information and use. The Under Secretary of Defense
(Comptroller)/Chief Financial Officer, DoD, met the requirements of the “Improper Payments
Elimination and Recovery Act of 2010,” but stated that there were problems with the
completeness and accuracy of the DoD improper payment review and the information he
reported. We are publishing this report in final form because no written response to this report
was required and none was received.

We appreciate the courtesies extended to the staff. Please direct questions to me at (703)
604-8905.




                                           Amy J. Frontz
                                           Principal Assistant Inspector General
                                             for Auditing
Report No. DODIG-2012-065 (Project No. D2012-D000DC-0045.000)                 March 15, 2012


              Results in Brief: DoD Compliance With the
              Requirements of the Improper Payments
              Elimination and Recovery Act
                                                             reported in the SBR to ensure that all
What We Did                                                  required payments for reporting
We determined whether DoD complied with                      purposes were captured.
Public Law 107-300, “Improper Payments
Information Act of 2002,” November 26, 2002,          USD(C)/CFO was planning actions to correct
as amended by Public Law 111-204, “Improper           these self-identified deficiencies in its improper
Payments Elimination and Recovery Act of              payment reporting. Specifically, USD(C)/CFO
2010,” July 22, 2010. We reviewed DoD                 stated that DFAS would begin statistical
reporting in the “FY 2011 Agency Financial            sampling of commercial payments in FY 2012.
Report” (AFR), Addendum A, “Other                     DoD was also working to improve its business
Accompanying Information.”                            and financial processes, controls, and systems to
                                                      achieve financial statement audit readiness by
What We Found                                         September 30, 2017, as required by Congress.
The Under Secretary of Defense (Comptroller)/         In October 2011, the Secretary of Defense
Chief Financial Officer, DoD (USD[C]/CFO),            directed the USD(C)/CFO to provide a revised
met the requirements of the Improper Payments         plan to achieve audit readiness for the SBR by
Elimination and Recovery Act of 2010, but             the end of 2014.
stated that there were problems with the
completeness and accuracy of the DoD’s                What We Recommend
improper payment review and the information           We agree that these areas need improvement
reported.                                             before DoD will be able to provide complete
                                                      and accurate information on the Department’s
USD(C)/CFO made significant disclosures               estimated amount of improper payments. In
about the limited completeness and accuracy of        previous reports, we identified similar problems
the DoD’s efforts to identify and report on           and issued recommendations to correct the areas
improper payments, including:                         that DoD disclosed in its AFR. As a result, we
                                                      are not making additional recommendations to
   	 DoD did not statistically sample Defense        improve the accuracy and completeness of the
      Finance and Accounting Service (DFAS)           reporting until DoD is able to take corrective
      commercial payments for its FY 2011             actions on outstanding recommendations and
      reporting,                                      the weaknesses it self-identified in the AFR.
   	 Transactions and processes (business
      and financial processes, controls, and          Management Comments
      systems) were neither standard nor              We do not require a written response to this
      sound in all cases, and                         report. Please see the recommendation table on
                                                      the back of this page.
   	 The Statement of Budgetary Resources
      (SBR) was not auditable, and as a result,
      DoD could not reconcile outlays to the
      quarterly or annual gross outlays


                                                  i
Report No. DODIG-2012-065 (Project No. D2012-D000DC-0045.000)         March 15, 2012

Recommendations Table

                   Management                      Recommendations Requiring Comment
Under Secretary of Defense (Comptroller)/Chief     None
Financial Officer, DoD
Commanding General and Chief of Engineers,         None
U.S. Army Corps of Engineers
Director, Defense Finance and Accounting Service   None
Director, TRICARE Management Activity              None




                                         ii
Table of Contents

Introduction                                                            1    


      Audit Objective                                                   1

      Background on Improper Payments Elimination and Recovery Act      1

      Internal Controls Over the Identification and Reporting 

         of Improper Payments                                           2


Finding. DoD Met the Improper Payments Elimination and Recovery Act 

Requirements, but Completeness and Accuracy Issues Remained             3


      DoD Complied With the Improper Payments Elimination 

        and Recovery Act of 2010                                        4


               Published an Agency Financial Report for FY 2011         4

               Conducted a Risk Assessment                              4

               Produced Improper Payment Estimates                      5

               Provided Corrective Action Plans                         6

               Established Reduction Targets                            6

               Calculated Improper Payment Rates                        7

               Described Payment Recapture Activities                   7


      Accuracy and Completeness of Reporting                            8

      Management Corrective Actions                                     8


Appendix. Scope and Methodology                                         9


      Use of Computer-Processed Data                                    9

      Use of Technical Assistance                                       9

      Prior Coverage on Improper Payments                               9

Introduction
Audit Objective
Our objective was to determine whether DoD complied with Public Law 107-300,
“Improper Payments Information Act of 2002,” November 26, 2002, as amended by
Public Law 111-204, “Improper Payments Elimination and Recovery Act of 2010,”
July 22, 2010. The audit was required by the 2010 Act. See the Appendix for our scope
and methodology and prior coverage of improper payments.

Background on Improper Payments Elimination and
Recovery Act
On July 22, 2010, the President signed the Public Law 111-204, “Improper Payments
Elimination and Recovery Act of 2010” (IPERA), which amended the “Improper
Payments Information Act of 2002” (IPIA). The Office of Management and Budget
(OMB) issued Circular A-123, Appendix C, “Requirements for Effective Measurement
and Remediation of Improper Payments,” parts I and II, April 14, 2011, as guidance for
agencies to implement the requirements of IPERA.

IPERA Compliance Requirements
IPERA section 3(a) states that the term “compliance” means that the agency:
    	   published an annual financial statement for the most recent fiscal year and posted that report and
         any accompanying materials required under OMB guidance on the agency website;
    	   conducted a program-specific risk assessment for each program or activity…;
    	   published improper payments[1] estimates for all programs and activities in the accompanying
         materials to the annual financial statement;
    	   published programmatic corrective action plans…that the agency may have in the accompanying
         materials to the annual financial statement;
    	   published improper payments reduction targets…that the agency may have in the accompanying
         materials to the annual financial statement for each program assessed to be at risk, and is meeting
         such targets; and

    	 reported an improper payment rate of less than 10 percent for each program and activity for which
         an estimate was published…



1
  An improper payment is any payment that should not have been made or that was made in an incorrect
amount under statutory, contractual, administrative, or other legally applicable requirements. Incorrect
amounts are overpayments or underpayments made to eligible recipients (including appropriate denials of
payment or service, any payment that does not account for credit for applicable discounts, payments that
are for an incorrect amount, and duplicate payments). Improper payments also include payments made to
ineligible recipients or for ineligible goods or services, or payments for goods or services not received
(except for such payments authorized by law). Improper payments also include payments when an
agency’s review is unable to determine whether the payments were proper as a result of insufficient or lack
of documentation.


                                                     1

OMB implementing guidance added an additional requirement for determining agency
compliance. Specifically, OMB Circular A-123, appendix C, part I, requires agencies to
report information on efforts to recapture improper payments.

IPERA section 3(b) requires the Inspector General to annually review and determine
agency compliance with IPIA, as amended by IPERA. Section 3(b) of IPERA also
requires the Inspector General to submit a report with its determination on the agency’s
FY 2011 compliance to the head of the agency, Senate Homeland Security and
Governmental Affairs Committee, House Committee on Oversight and Governmental
Reform, Comptroller General, and OMB Controller by March 15, 2012.

If an agency did not meet one or more of these requirements, it was not compliant with
IPERA. IPERA implementing guidance encourages the agency Inspector General to
evaluate, as part of its review of these improper payment elements, the accuracy and
completeness of agency reporting and evaluate agency performance in reducing and
recapturing improper payments. The guidance also encourages the agency Inspector
General, as part of its report, to include any recommendations for actions to improve the
agency’s performance in reducing improper payments.

Internal Controls Over the Identification and Reporting
of Improper Payments
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. DoD self-identified several
internal control weaknesses related to improper payment identification and reporting in
its “FY 2011 Agency Financial Report.” Specifically, DoD reported that (1) it did not
statistically sample DFAS commercial payments; (2) transactions and processes were
neither standard nor sound in all cases; and (3) the Statement of Budgetary Resources
was not auditable, and as a result, DoD could not reconcile payments to total DoD
outlays to ensure that it identified and reviewed all payment programs.
We are not making any recommendations to correct these internal control weaknesses
because USD(C)/CFO disclosed these problem areas and provided corrective action
plans and estimated completion dates for auditability and statistical sampling of
commercial payments. In a previous report, we identified similar problems and issued
recommendations to correct the areas that DoD disclosed in its AFR. We will provide a
copy of the report to the senior official in charge of internal controls for USD(C)/CFO.




                                            2

Finding. DoD Met the Improper Payments
Elimination and Recovery Act Requirements,
but Completeness and Accuracy
Issues Remained
The Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD
(USD[C]/CFO), met the requirements of the Improper Payments Elimination and
Recovery Act of 2010 (IPERA), but stated that there were problems with the
completeness and accuracy of the DoD’s improper payment review and the information
reported.

As required by OMB Circular A-123, appendix C, USD(C)/CFO published the
information necessary to comply with IPERA requirements. Specifically, USD(C)/CFO
reported in the DoD “FY 2011 Agency Financial Report” (AFR):
      results of a risk assessment performed on eight payment programs identified as
       susceptible to significant improper payments;
      improper payment estimates for each of the eight programs;
      corrective action plans that addressed the root causes for each of the programs
       identified;
      annual reduction targets for FYs 2012-2014 for each of the eight programs with
       improper payment estimates;
      improper payment rates for each of the eight programs, with the highest error rate
       being 3.28 percent; and
      payment recapture targets, aging of debts, recaptured funds disposition, and funds
       recaptured outside of payment recapture audits.

USD(C)/CFO made significant disclosures about the limited completeness and accuracy
of the DoD’s efforts to identify and report on improper payments. Specifically,
USD(C)/CFO disclosed the following problems that limited the DoD’s ability to provide
complete and accurate information:
      DoD did not statistically sample commercial payments to estimate the annual
       amount of improper payments for its FY 2011 reporting;
      DoD transactions and processes were neither standard nor sound in all cases;
      The DoD Statement of Budgetary Resources (SBR) was not auditable, and as a
       result, DoD could not reconcile outlays to the quarterly or annual gross outlays
       reported in the SBR to ensure that all required payments for reporting purposes
       were captured.

We agree that the challenges USD(C)/CFO disclosed need improvement before DoD can
provide complete and accurate information in the Department’s IPERA reporting. In
previous reports, we identified similar problems and issued recommendations to correct
the areas that DoD disclosed in its AFR. See the prior coverage section of the Appendix
for list of prior reports on improper payments.

                                            3

DoD Complied With the Improper Payments Elimination
and Recovery Act of 2010
The following sections contain our evaluation of DoD compliance with the requirements
of IPERA.

Published an Agency Financial Report for FY 2011
USD(C)/CFO complied with the IPERA requirement to publish an AFR. OMB
Circular A-123, Appendix C, Part I, “Improper Payments Elimination and Recovery,”
April 14, 2011, requires that agencies report to the President and Congress an estimate of
the annual amount of improper payments for all programs and activities determined to be
susceptible to significant improper payments. OMB Circular A-136 Revised, “Financial
Reporting Requirements,” October 27, 2011, requires that DoD issue the report by
November 15, 2011.

On November 15, 2011, DoD published, on its Web site, its FY 2011 AFR. The AFR
contained an estimate of the annual amount of improper payments for each of the eight
payment programs the USD(C)/CFO determined were high risk. USD(C)/CFO
determined that programs were high risk based on the large volume of each program’s
transactions and high dollar amounts spent.

Conducted a Risk Assessment
USD(C)/CFO complied with the IPERA requirement to conduct program-specific risk
assessments. OMB Circular A-123, appendix C, part I, required agencies to establish a
systematic method of identifying programs susceptible to significant improper payments
and stated that the systematic method could be a quantitative evaluation based on a
statistical sample or it could take into account risk factors. USD(C)/CFO provided a risk
assessment to identify payment programs susceptible to significant improper payments.
USD(C)/CFO identified the following eight programs, with combined outlays totaling
approximately $617.4 billion, as susceptible to significant improper payments based on
the large volume of transactions and payment amounts:

      Military Health Benefits,
      Military Pay,
      Civilian Pay,
      Military Retirement,
      Travel Pay,
      Commercial Pay,
      U.S. Army Corps of Engineers (USACE) Travel Pay, and
      USACE Commercial Pay.

USD(C)/CFO also stated, “The Department also monitors changes in programs
associated with the OMB-mandated criteria (e.g., a large increase in annual outlays,
regulatory changes, new programs) to track troubling trends and implement corrective
measures, as necessary.”


                                            4

DoD did not have an auditable SBR, and as a result, DoD could not reconcile outlays to
the annual gross outlays reported in the SBR. Reconciliation would have ensured that
DoD included all payments and programs in its improper payment reviews. In a report
we issued in March 2011,2 we recommended that USD(C)/CFO take steps to reconcile all
DoD outlays reviewed for improper payments against the SBR gross outlays.

DoD’s inability to identify and reconcile total payments to the SBR negatively affected
the reliability and completeness of any measurements, estimates, or reviews for improper
payments. DoD was working to improve business and financial processes, controls, and
systems to achieve financial statement audit readiness by September 30, 2017, as required
by Congress. In October 2011, the Secretary of Defense directed USD(C)/CFO to
provide a revised plan to achieve audit readiness for the SBR by the end of 2014.
USD(C)/CFO stated that DoD was committed to meeting this goal by 2014.

Produced Improper Payment Estimates
USD(C)/CFO complied with the IPERA requirement to publish improper payment
estimates for programs identified as susceptible to significant improper payments.
However, the March 2011 audit report showed that improper payment estimates were
inaccurate and incomplete. OMB Circular A-123, appendix C, part I, requires agencies
to publish improper payment estimates for all programs identified as susceptible to
significant improper payments under its risk assessment.

Specifically, USD(C)/CFO reported in the FY 2011 AFR improper payment estimates for
each of the eight programs identified under the risk assessment as susceptible to
significant improper payments. The improper payment rates for the eight programs
ranged from 0.04 to 3.28 percent. The DoD FY 2011 AFR contained the following
estimates and percentages (see Table).

     Table. FY 2011 Improper Payments Estimates for the High-Risk Programs
           Program                           Improper Payment
                                 Total (millions)              Percentage
    Military Health Benefits                 $30.2                            0.24
    Military Pay                             474.3                            0.49
    Civilian Pay                               90.9                           0.16
    Military Retirement                        18.9                           0.04
    Travel Pay                               286.6                            3.28
    Commercial Pay                           224.6                            0.06
    USACE Travel Pay                            2.1                           1.00
    USACE Commercial Pay                       11.9                           0.04
     Total                                  $1,139.5                          0.18



2
 DoD IG Report No. D2011-050, “DoD Needs to Improve High Dollar Overpayment Review and
Reporting,” March 16, 2011.

                                              5
DFAS, USACE, and TRICARE Management Activity conducted statistical or 100
percent post-payments reviews for all but one program. DFAS did not conduct a
statistical sample for commercial pay. However, DFAS was planning to begin
statistically sampling commercial payments in FY 2012.

In our March 2011 report, we recommended that DFAS develop procedures and
implement a methodology to include statistically sampling commercial pay systems for
improper payments.

Provided Corrective Action Plans
USD(C)/CFO complied with the IPERA requirement to publish corrective actions plans.
OMB Circular A-123, appendix C, part I, states that agencies should use the results of
their statistical sampling measurements to identify the root causes of improper payments,
and implement corrective actions to prevent and reduce improper payments.

In the FY 2011 AFR, USD(C)/CFO published corrective action plans for each of the
programs susceptible to significant improper payments. USD(C)/CFO stated that the
                             corrective action plans addressed the primary root causes of
      …the corrective
                             improper payments identified for each payment program. He
        action plans
                             stated that in most cases, the corrective actions were in
  addressed the primary
                             progress through the year, using various improper payment
       root causes of
                             identification and reporting processes. For example, DoD,
  improper payments….
                             primarily through DFAS, continues to work with
Components and Military Services to advise them of the results of payment reviews and
the associated reasons for the errors.

Established Reduction Targets
USD(C)/CFO complied with the IPERA requirement to publish annual reduction targets
for each program measured for improper payments. OMB Circular A-123, appendix C,
part I, requires agencies to set reduction targets for future improper payment levels and a
timeline within which the targets will be reached. In addition, the guidance states that the
reduction targets must be approved by the OMB Director. The Director’s review is
conducted on draft AFR materials; OMB does not require DoD to submit separate
reduction target information for approval.

USD(C)/CFO published DoD reduction targets in the FY 2011 AFR for each program
that reported improper payment estimates. Specifically DoD developed reduction targets
for Military Pay, Military Retirement, Military Health Benefits, Civilian Pay, Travel Pay,
and Commercial Pay.




                                             6

Calculated Improper Payment Rates
USD(C)/CFO complied with the IPERA requirement to report improper payment rates of
less than 10 percent for each estimated program. OMB Circular A-123, appendix C,
part II, requires agencies to report a gross improper payment rate of less than 10 percent
for each program with an improper payment estimate. DoD did not report any payment
programs with improper payment rates above 10 percent.

Although the total dollars disbursed and total dollar amounts of improper payments were
high, the percentages of improper payments were relatively low. Improper payment rates
for seven of the eight payment programs were at or below 1 percent. The DoD Travel
Pay program, which does not include USACE travel, had the highest reported improper
payment rate at 3.28 percent.

Described Payment Recapture Activities
USD(C)/CFO complied with the OMB requirement to report information on efforts to
recapture improper payments. OMB Circular A-123, appendix C, part I, requires
agencies to report information on efforts to recapture improper payments. USD(C)/CFO
stated in the FY 2011 AFR that DoD did not use external payment recapture auditors to
identify and recover overpayments. DoD instead performed and reported internal
collection activities as payment recaptures.

USD(C)/CFO reported that when Section 831, Public Law 107-107, “National Defense
Authorization Act for FY 2002,” December 28, 2001, was passed, DoD awarded several
contracts to identify and recover improper payments. Recovery auditors would be paid
only on a contingency basis and only after funds were actually recovered. USD(C)/CFO
stated that in nearly every instance, the contractors were not able to establish an adequate
profit margin; consequently, they asked that the contracts be terminated. Based on its
experience with the use of contingency contracts to recover outstanding overpayments,
                                DoD determined that this type of effort was not cost-
    …DoD’s transactions         effective. USD(C)/CFO also reported that because DoD’s
     and processes were         transactions and processes were neither standard nor sound
    neither standard nor        in all cases, contractors would find it difficult to perform
    sound in all cases….        postpayment reviews to identify potential overpayments.

Finally, USD(C)/CFO reported that DoD was unable to reconcile its outlays to the
quarterly or annual gross outlays reported in the SBR to ensure that all required payments
for reporting purposes were captured. As previously mentioned, we recommended in our
March 2011 report that USD(C)/CFO take steps to reconcile all DoD outlays reviewed
for improper payments against the SBR. Until USD(C)/CFO can ensure all required
payments for reporting purposes were captured, we cannot be confident that DoD
reviewed all payment programs and activities to recapture payments.




                                             7

Accuracy and Completeness of Reporting
OMB Circular A-123, appendix C, part II, states that the agency Inspector General, as
part of its improper payment review, should also evaluate the accuracy and completeness
of DoD reporting. During the audit, we noted that USD(C)/CFO had disclosed, in the
AFR, weaknesses in the accuracy and completeness of DoD reporting.

Specifically, the USD(C)/CFO admitted there were problems with the completeness and
accuracy of the DoD improper payment review and the information it reported, The
USD(C)/CFO reported that:

      DoD did not statistically sample commercial payments for its FY 2011 reporting;
      Transactions and processes were neither standard nor sound in all cases; and
      The SBR was not auditable, and as a result, DoD could not reconcile outlays to
       the quarterly or annual gross outlays reported in the SBR to ensure that all
       required payments for reporting purposes were captured.

We agree that these areas need improvement before the DoD will be able to provide
complete and accurate information. In previous reports, listed in the Appendix, we
identified similar problems and issued recommendations to correct the areas that DoD
disclosed in its AFR. As a result, we are not making additional recommendations to
improve the accuracy and completeness of the reporting until the DoD is able to take
corrective actions on the recommendations and weaknesses it identified in the AFR.

Management Corrective Actions
DoD management planned to take action to correct the deficiencies it identified.
Specifically, USD(C)/CFO stated that DFAS would begin statistical sampling of its
commercial payments in FY 2012 to develop a statistically based annual improper
payment estimate for these payments. USD(C)/CFO also reported that DoD was working
to improve business and financial processes, controls, and systems to achieve financial
statement audit readiness by September 30, 2017, as required by Congress. In October
2011, the Secretary of Defense directed USD(C)/CFO to provide a revised plan to
achieve audit readiness for the SBR by the end of 2014.




                                           8

Appendix. Scope and Methodology
We conducted this performance audit from November 2011 through February 2012 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

To determine DoD compliance with IPERA requirements, we obtained and reviewed the
“Improper Payment and Payment Recapture Programs” report published in Addendum A,
“Other Accompanying Information,” of the FY 2011 DoD AFR. We also obtained and
reviewed Public Law 111-204 and OMB Circulars A-123 and A-136. We then reviewed
the methodology used to complete program estimates and conducted interviews with
personnel from the USD(C)/CFO, DFAS, TRICARE Management Activity, and USACE
to obtain details on the reporting process. We gathered and reviewed supporting
documentation used to support program estimates, payment recapture efforts and results,
reduction targets, and corrective actions reported by DoD.

Use of Computer-Processed Data
We did not rely on computer-processed data.

Use of Technical Assistance
During the audit, we requested and received technical assistance from the DoD Office of
Inspector General Quantitative Methods Division. We used the technical assistance to
validate the statistical sampling plans DFAS used to sample payments made to
individuals. The statisticians in the Quantitative Methods Division determined that
DFAS used simple conservative formulas and that the formulas would yield adequate
sample sizes for the projection to the large populations of payments to individuals.

Prior Coverage on Improper Payments
During the last 5 years, the Government Accountability Office (GAO) and the
Department of Defense Inspector General (DoD IG) have issued eight reports discussing
improper payments in general; however, no reports have been issued on IPERA to date.
Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov.
Unrestricted DoD IG reports can be accessed at http://www.dodig.mil/audit/reports.

GAO
GAO Report No. GAO-09-442, “Significant Improvements Needed in DOD’s Efforts to
Address Improper Payment and Recovery Auditing Requirements,” July 29, 2009.

GAO Report No. GAO-08-16, “DOD Travel Improper Payments: Fiscal Year 2006
Reporting Was Incomplete and Planned Improvement Efforts Face Challenges,”
December 14, 2007.

                                            9

DoD IG
DoD IG Report No. D-2011-050, “DoD Needs to Improve High Dollar Overpayment
Review and Reporting,” March 16, 2011.

DoD IG Report No. D-2010-037, “Internal Controls Over United States Marine Corps
Commercial and Miscellaneous Payments Processed Through the Deployable Disbursing
System,” January 25, 2010.

DoD IG Report No. D-2009-072, “Monitoring PowerTrack Payments for DoD Freight
Transportation,” April 9, 2009.

DoD IG Report No. D-2008-132, “Ocean Freight Transportation Payments Using
PowerTrack (FOUO),” September 26, 2008.

DoD IG Report No. D-2008-096, “Identification and Reporting of Improper Payments by
the Defense Logistics Agency,” May 20, 2008.

DoD IG Report No. D-2008-043, “Identification and Reporting of Improper Payments –
Refunds from DoD Contractors,” January 31, 2008.




                                        10

